                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                                     MORANDUM

11   Case Number: 1-06050013               I                                                Page 1 of 1

                 -
                                            I
                                                                     --
                                            I
          OIG received an allegation that a firogram Officer (subject)' at N S F ~may have a conflict-of-
          interest with a cornpan$ contracted to produce environmental impact statements for specific
          NSF awards. The complaint alleges that there may be a conflict-of- interest between the subject
          and-the,ExecutiveVice president4of the company. An investigation was initiated to determine if
          there-is-- a .conflict-of-interest betwdFn the NSF employee and-the company. The complaint also
          alleged that there was email traffic isupporting the allegation.

          The complainant5stated that in general conversation with program personnel,6 it was stated that
          the subject became a bit oversensitp to criticism of the company chosen to produce the
          environmental impact statements fbr the awards. The complainant stated that he heard the
          subject and the Executive Vice President were good fi-iends and attended school together.

          After speaking with the complaindt, OIG contacted DIS to obtain the email traffic fiom the
          subject's computer for the timefiqe covering the panel in which the proposal was discussed.
          OIG reviewed the subject's email correspondence and interviewed the subject but could not find
          any indication that a conflict of intc$est existed between the subject and the company.
          Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)                        .I
